CERTIFICATE OF WORD COUNT

Case No. 20-637
Case Name: Darrell Hemphill v. State of New York

Document Title: Brief of Richard D. Friedman as Amicus Curiae in Support of
Petitioner

Pursuant to Rule 33.1(h) of the Rules of this Court, I certify that the
accompanying Brief of Richard D. Friedman as Amicus Curiae in Support of
Petitioner, which was prepared using Century Schoolbook 12-point typeface, contains
7,069 words, excluding the parts of the document that are exempted by Rule 33.1(d).
This certificate was prepared in reliance on the word-count function of the
wordprocessing system (Microsoft Word) used to prepare the document.

I declare under penalty of perjury that the foregoing is true and correct.

DATED this 29t day of June 2021. fzf dD An S.

Richard D. Friedman

625 South State Street
Ann Arbor, Michigan 48109
(734) 647-1078

rdfrdman@umich.edu
